March 1, 2021
Honorable Scott S. Harris
Clerk, Supreme Court of the United States
One First Street NE
Washington, DC 20543
Re:

Americans for Prosperity Foundation v. Becerra &
Thomas More Law Center v. Becerra
Nos. 19-251, 19-255
CERTIFICATE OF SERVICE

Dear Mr. Harris:
I, Aditya Dynar, counsel for Amicus Curiae, New Civil Liberties Alliance, do
hereby declare that on March 1, 2021, as required by Supreme Court Rule 29.5, I have
served by first-class mail, postage pre-paid, the Brief of the New Civil Liberties Alliance
as Amicus Curiae in Support of Petitioners on counsel for each party to the above
proceeding. All parties required to be served have been served as per the attached
Service List.
Executed on March 1, 2021.

Aditya Dynar
Counsel for Petitioners

1225 19th Street NW Suite 450, Washington DC 20036 (202) 869-5210

www.NCLAlegal.org

NCLA
Page 2 of 2

SERVICE LIST
Counsel for Petitioners:
Derek L. Shaffer
Quinn Emanuel Urquhart & Sullivan, LLP
1300 I Street NW, Suite 900
Washington, DC 20005
(202) 538-8000 | DerekShaffer@quinnemanuel.com
John J. Bursch
Alliance Defending Freedom
440 First Street NW, Suite 600
Washington, DC 20001
(616) 450-4235 | JBursch@adflegal.org
Counsel for Respondent:
Aimee Athena Feinberg
California Department of Justice
1300 I Street
Sacramento, CA 95814
(916) 210-6003 | Aimee.Feinberg@doj.ca.gov

